Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




JERSEY CITY, NEW JERSEY, DID NOT
  ALWAYS COMPLY WITH EARLY
 RETIREE REINSURANCE PROGRAM
         REQUIREMENTS




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      January 2014
                                                      A-05-12-00039
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

Jersey City, New Jersey, incorrectly requested and received $130,401 in Early Retiree
Reinsurance Program reimbursements based on claims that were not in compliance with
Federal requirements and Center for Consumer Information Insurance Oversight guidance.

WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act, P.L. No. 111-148, and the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111-152 (together, the Affordable Care Act),
enacted on March 23, 2010, established the Early Retiree Reinsurance Program (ERRP). The
ERRP is a temporary reinsurance program designed to reimburse participating employment-
based plans for a portion of the cost of providing health insurance to early retirees aged 55 or
older and to certain eligible family members. We conducted this review of the ERRP program
because of the large amount of funding for this new program, the short timeframe for which the
ERRP program would be in existence, and the amount of payments to be made.

Our objectives were to determine whether the claims that Jersey City, New Jersey (the City),
submitted to the Center for Consumer Information Insurance Oversight (CCIIO) for ERRP
reimbursements, and the City’s use of the reimbursements, were in compliance with Federal
requirements and CCIIO guidance.

BACKGROUND

CCIIO, a part of the Centers for Medicare & Medicaid Services, is responsible for program
administration.

Claims that plan sponsors submit for ERRP reimbursement must be based on actual costs
incurred for providing health benefits, such as medical, surgical, and prescription benefits, to
early retirees and their spouses, surviving spouses, and dependents. Early retirees must be
individuals who are (1) aged 55 or older, (2) not eligible for health insurance coverage under
Medicare, and (3) not active employees eligible for coverage under an employer’s health
insurance plan. If an early retiree died before June 1, 2010, claims of the surviving spouse would
not qualify for ERRP reimbursement.

Prior to each ERRP reimbursement request, plan sponsors must submit a file, referred to as an
Early Retiree List, to CCIIO that identifies all eligible early retirees for a plan year. An Early
Retiree List must include each individual who meets the definition of an early retiree and
through whom the spouse, surviving spouse, and dependents receive their health benefits.

ERRP reimbursement is limited to 80 percent of the health benefit costs for all claims incurred
by the plan during the plan year that begins on or after June 1, 2010. To be eligible for
reimbursement, total claims for health benefit costs attributable to each individual early retiree
must be between $15,000 (cost threshold) and $90,000 (cost limit). Additionally, for a plan year
that begins before June 1, 2010, and ends after that date, the amount of claims incurred before




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                              i
June 1, 2010, that exceeds $15,000 is not eligible for reimbursement and does not count toward
the cost limit.

The Affordable Care Act requires plan sponsors to use ERRP reimbursement to reduce the
sponsor’s health benefit premiums and health benefit costs, to reduce the plan participants’
health benefit premiums and health benefit costs, or a combination of both. Plan sponsors may
not use ERRP reimbursements as general revenue.

The City offered self-funded health benefits (consisting of medical and prescription drug
benefits) to eligible employees, retirees, and their dependents. The City is the plan sponsor.

HOW WE CONDUCTED THIS REVIEW

Our review covered claims for all of the 201 individuals reported as early retirees by the City for
part of 2 plan years from January 1 through December 31, 2010, and from January 1 through
September 30, 2011. For the 2 plan years, the City received an ERRP reimbursement of
$4,599,315. We also reviewed how the City used the ERRP reimbursements.

WHAT WE FOUND

The City incorrectly requested and received $130,401 in ERRP reimbursements based on claims
that were not in compliance with Federal requirements and CCIIO guidance. Specifically:

    •   The City requested and received $63,700 in net ERRP reimbursements based on
        unallowable claims of 122 early retirees by submitting claims for costs that were incurred
        before June 1, 2010, and that exceeded $15,000.

    •   The City requested and received $54,430 in ERRP reimbursements based on unallowable
        claims of the surviving spouses of seven City employees. The surviving spouses were
        inappropriately listed as City employees on the Early Retiree Lists. In all these cases, the
        corresponding City employees died before June 1, 2010.

    •   The City requested and received $12,271 in ERRP reimbursements based on unallowable
        claims of four active employees eligible for coverage under the City’s health insurance
        plan.

The City’s use of the ERRP reimbursements was in compliance with Federal requirements and
CCIIO guidance.

The City did not have adequate policies and procedures to ensure that it submitted claims for
reimbursement of only allowable costs incurred for individuals who met the definition of an
early retiree and their spouses and dependents. Specifically, the City did not have policies and
procedures to help ensure that it:

    •   submitted claims for reimbursement of costs that were incurred on or after June 1, 2010,
        and only for early retirees and their spouses, surviving spouses, and dependents and


Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                            ii
    •   reported individuals who met the definition of an early retiree and through whom the
        spouse, surviving spouse, and dependents received health benefits on its Early Retiree
        List.

WHAT WE RECOMMEND

We recommend that the City:

    •   refund $130,401 in incorrectly requested and received ERRP reimbursements,

    •   work with CCIIO to correct any subsequent ERRP reimbursement requests that did not
        comply with Federal requirements and CCIIO guidance, and

    •   develop and implement policies and procedures to help ensure that the City claims only
        allowable health benefit costs incurred for individuals who meet the definition of an early
        retiree.

CITY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the City partially agreed with our findings and did not
directly address all of our recommendations. With regard to our finding related to the net ERRP
reimbursements of $63,700, the City stated that the issue had been corrected in the subsequent
ERRP reimbursement request submission. The City agreed with our finding related to the ERRP
reimbursements of $54,430. However, the City disagreed with our finding related to the ERRP
reimbursements of $12,271 and stated that the retired and subsequently reemployed employees
were not eligible for any health benefits.

After reviewing the comments and documentation that the City provided, we maintain that our
findings and recommendations are valid.




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                          iii
                                                          TABLE OF CONTENTS

INTRODUCTION ....................................................................................................................1

           Why We Did This Review ...........................................................................................1

           Objectives .....................................................................................................................1

           Background ...................................................................................................................1
                 Early Retiree Reinsurance Program: Federal Funding and How
                   Plan Sponsors Are Reimbursed .....................................................................1
                 The City Is the Plan Sponsor ............................................................................2

           How We Conducted This Review.................................................................................3

FINDINGS ................................................................................................................................ 3

           The City Requested Early Retiree Reinsurance Program Reimbursements
            on the Basis of Unallowable Claims .......................................................................... 3
                  Claims for Costs Incurred Prior to June 1, 2010, That Exceeded $15,000 ....... 3
                  Surviving Spouses Were Inappropriately Listed As Retirees ........................... 4
                  Claims Made on Behalf of Active Employees .................................................. 4

           The City Had Inadequate Policies and Procedures .......................................................4

RECOMMENDATIONS ..........................................................................................................5

CITY COMMENTS AND OUR RESPONSE……..................................................................5

           Claims for Costs Incurred Prior to June 1, 2010, That Exceeded $15,000…………...5

           Surviving Spouses Were Inappropriately Listed As Retirees………………………...6

           Claims Made on Behalf of Active Employees………………………………………..6

APPENDIXES

           A: Audit Scope and Methodology ............................................................................... 7

           B: Federal Requirements and Center for Consumer Information Insurance Oversight
              Guidance for Early Retiree Reinsurance Program………………………………..9

           C: Related Office of Inspector General Reports……………………………………12

           D: City Comments…………………………………………………………………..13




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                                                        iv
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act, P.L. No. 111-148, and the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111-152 (together, the Affordable Care Act),
enacted on March 23, 2010, established the Early Retiree Reinsurance Program (ERRP). The
ERRP is a temporary reinsurance program designed to reimburse participating employment-
based plans for a portion of the cost of providing health insurance to early retirees aged 55 or
older and to certain eligible family members. We conducted this review of the ERRP program
because of the large amount of funding for this new program, the short timeframe for which the
ERRP program would be in existence, and the amount of payments to be made.

OBJECTIVES

Our objectives were to determine whether the claims that Jersey City, New Jersey (the City),
submitted to the Center for Consumer Information Insurance Oversight (CCIIO) for ERRP
reimbursements, and the City’s use of the reimbursements, were in compliance with Federal
requirements and CCIIO guidance.

BACKGROUND

Early Retiree Reinsurance Program: Federal Funding and
How Plan Sponsors Are Reimbursed

Federal Funding of the Program

The Affordable Care Act, section 1102(e), appropriated $5 billion in funding for the ERRP. The
program began reimbursing plan sponsors for costs incurred on or after June 1, 2010. It is
scheduled to end on January 1, 2014. As of January 2012, ERRP reimbursements totaled nearly
$4.7 billion. CCIIO, a part of the Centers for Medicare & Medicaid Services (CMS) within the
Department of Health and Human Services, is responsible for program administration. 1

Program Participation and Reimbursement

To participate in the ERRP, the plan and its sponsor must meet a set of requirements, and CCIIO
must approve the plan sponsor’s application. 2



1
  Until January 2011, the Office of Consumer Information and Insurance Oversight within the Department of Health
and Human Services administered the program. The name CCIIO used throughout this report refers to CCIIO and
its predecessor.
2
  Generally, the regulation uses the term “sponsor” when referring to the entity that applies for and receives
reimbursement under the ERRP and uses the term “employment-based plan” when referring to the health benefits
arrangement that the plan sponsor must offer (75 Fed. Reg. 24451 (May 5, 2010)).



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                          1
Claims that plan sponsors submit for ERRP reimbursement must be based on actual costs
incurred for providing health benefits, such as medical, surgical, and prescription benefits, to
early retirees and their spouses, surviving spouses, and dependents. Early retirees must be
individuals who are (1) aged 55 or older, (2) not eligible for health insurance coverage under
Medicare, and (3) not active employees eligible for coverage under an employer’s health
insurance plan (the Affordable Care Act §§ 1102(a) and 1102(c)). If an early retiree
died before June 1, 2010, claims of the surviving spouse would not qualify for ERRP
reimbursement. 3

Prior to each ERRP reimbursement request, plan sponsors must submit a file, referred to as an
Early Retiree List, 4 to CCIIO that identifies all eligible early retirees for a plan year. An Early
Retiree List must include each individual who meets the definition of an early retiree and
through whom the spouse, surviving spouse, and dependents receive their health benefits
(45 CFR § 149.335).

ERRP reimbursement is limited to 80 percent of the health benefit costs for all claims that the
plan incurs during the plan year that begins on or after June 1, 2010. To be eligible for
reimbursement, total claims for health benefit costs attributable to each individual early retiree
must be between $15,000 (cost threshold) and $90,000 (cost limit). Additionally, for a plan year
that begins before June 1, 2010, and ends after that date, the amount of claims incurred before
June 1, 2010, that exceeds $15,000 is not eligible for reimbursement and does not count toward
the cost limit (45 CFR §§ 149.100, 149.105, and 149.115).

The Affordable Care Act requires plan sponsors to use ERRP reimbursement to reduce the
sponsor’s health benefit premiums and health benefit costs, to reduce the plan participants’
health benefit premiums and health benefit costs, or a combination of both. Plan sponsors may
not use ERRP reimbursements as general revenue (Affordable Care Act § 1102(c)). A plan is
presumed to have properly used its ERRP reimbursement in a given year if its contribution
toward the health benefit costs for the year is equal to or more than the contribution it made in
the baseline period that CCIIO specified in its guidance (the maintenance-of-contribution
requirement). 5

The City Is the Plan Sponsor

The City offered self-funded health benefits (consisting of medical and prescription drug
benefits) to eligible employees, retirees, and their dependents. The City is the plan sponsor.
In August 2010, CCIIO approved the City’s application for participation in the ERRP. The City
stated in its application that the ERRP reimbursement would be used to offset any expected
increases in plan health benefit premiums and costs. As of December 2011, CCIIO had

3
 Available online at http://errp.gov/faq_eligible.shtml, Answer ID 300-7, posted on 09/24/2010. Accessed on
April 2, 2013.
4
 Available online at http://www.errp.gov/wbt/early_retiree_list/early_retiree_list_Lesson6.htm, slide 40. Accessed
on April 2, 2013.
5
 CCIIO’s Guidance on Complying with the Prohibition on Using Early Retiree Reinsurance Program
Reimbursements as General Revenue (Aug. 19, 2011).


Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                              2
reimbursed the City $4,599,315 for health benefit costs that the City had incurred on behalf of
201 individuals, reported as early retirees by the City, from January 1, 2010, though
September 30, 2011.

HOW WE CONDUCTED THIS REVIEW

Our review covered claims for all of the 201 individuals that the City reported as early retirees 6
for part of 2 plan years from January 1 through December 31, 2010, and from January 1 through
September 30, 2011. 7 For the 2 plan years, the City received an ERRP reimbursement of
$4,599,315. We also reviewed how the City used its ERRP reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology. Appendix B contains the
Federal requirements and CCIIO guidance for the ERRP. Appendix C lists the Office of
Inspector General reports related to prior audits of the ERRP.

                                                    FINDINGS

The City incorrectly requested and received $130,401 in ERRP reimbursements based on claims
that were not in compliance with Federal requirements and CCIIO guidance. The improper
reimbursements were attributable to unallowable claims (1) for costs incurred prior to June 1,
2010, that exceeded $15,000, (2) of inappropriately listed surviving spouses, and (3) of active
employees.

The City’s use of ERRP reimbursements was in compliance with Federal requirements and
CCIIO guidance.

THE CITY REQUESTED EARLY RETIREE REINSURANCE PROGRAM
REIMBURSEMENTS ON THE BASIS OF UNALLOWABLE CLAIMS

Claims for Costs Incurred Prior to June 1, 2010, That Exceeded $15,000

The City requested and received $63,700 in net ERRP reimbursements based on unallowable
claims for 122 early retirees by submitting claims for costs that were incurred before June 1,
2010, and that exceeded $15,000. Federal regulations specify that for a plan year that begins
6
 The term “early retiree” includes an individual who meets the definition of an early retiree, as well as enrolled
spouses, surviving spouses, and dependents of such individuals (45 CFR § 149.2).
7
 We selected an audit period that ended on September 30, 2011, because CCIIO’s reimbursement to the City was
based on health benefit costs that the City had incurred on behalf of 201 individuals, reported as early retirees by the
City, from January 1, 2010, though September 30, 2011.



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                                3
before June 1, 2010, and ends after that date, the amount of claims incurred before June 1, 2010,
that exceeds $15,000 is not eligible for reimbursement and does not count toward the
individual’s cost limit (45 CFR § 149.105(a)).

Surviving Spouses Were Inappropriately Listed As Retirees

The City requested and received $54,430 in ERRP reimbursements based on unallowable claims
of the surviving spouses of seven City employees who retired and died before June 1, 2010. The
City listed surviving spouses as retired employees on the Early Retiree Lists and submitted
claims for reimbursement of health benefit costs incurred for the surviving spouses. CCIIO
specifies that an Early Retiree List must include each individual who meets the definition of an
early retiree and through whom the spouse, surviving spouse, and dependents receive their health
benefits (45 CFR § 149.335). CCIIO also specifies that a surviving spouse would not satisfy the
definition of an early retiree if the individual through whom the surviving spouse receives health
benefits died before June 1, 2010.

In one additional case, although the City inappropriately listed the surviving spouse as a retired
employee on the Early Retiree List, we did not disallow the related reimbursement of $108,717
because the retired employee died after June 1, 2010. The retired employee and the surviving
spouse of this employee had met the definition of an early retiree.

Claims Made on Behalf of Active Employees

The City requested and received $12,271 in ERRP reimbursements based on unallowable claims
of four active employees. These employees retired but subsequently were reemployed by the
City. During their reemployment, they were eligible for coverage under the City’s health
insurance plan. For a plan sponsor to be eligible for ERRP reimbursement, its claims must be for
health benefit costs incurred for individuals who are not active employees 8 eligible for coverage
under an employer’s health insurance plan (Affordable Care Act § 1102(a)).

THE CITY HAD INADEQUATE POLICIES AND PROCEDURES

The City did not have adequate policies and procedures to ensure that it submitted claims for
reimbursement of only allowable costs incurred for individuals who met the definition of an
early retiree and their spouses and dependents. Specifically, the City did not have policies and
procedures to help ensure that it:

    •    submitted claims for reimbursement of costs that were incurred on or after June 1, 2010,
         and only for early retirees and their spouses, surviving spouses, and dependents and




8
  The determination of whether an individual is an active employee is made by the plan sponsor in accordance with
the rules of its plan (45 CFR § 149.2). Absent a plan definition or plan rules that are unclear, the plan sponsor must
use the Medicare Secondary Payer definition of current employment status to determine whether the individual is to
be receiving coverage by reason of current employment status (42 CFR § 411.104).



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                              4
    •   included on its Early Retiree List individuals who met the definition of an early retiree
        and through whom the spouse, surviving spouse, and dependents received health benefits.

                                       RECOMMENDATIONS

We recommend that the City:

    •   refund $130,401 in incorrectly requested and received ERRP reimbursements,

    •   work with CCIIO to correct any subsequent ERRP reimbursement requests that did not
        comply with Federal requirements and CCIIO guidance, and

    •   develop and implement policies and procedures to help ensure that the City claims only
        allowable health benefit costs incurred for individuals who meet the definition of an early
        retiree.

CITY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the City partially agreed with our findings and did not
directly address all of our recommendations. The City’s comments, excluding the New Jersey
guidance and the letter from the City’s personnel director, are included as Appendix D. After
reviewing the comments and documentation that the City provided, we maintain that our findings
and recommendations are valid.

Claims for Costs Incurred Prior to June 1, 2010, That Exceeded $15,000

City Comments

With regard to our finding that the City requested and received $63,700 in net ERRP
reimbursements for costs that it incurred prior to June 1, 2010, that exceeded $15,000, the City
stated that the issue had been corrected in the subsequent ERRP reimbursement request
submission.

Our Response

We maintain that the City should refund $63,700 in unallowable ERRP reimbursements. To
return the unallowable ERRP reimbursements, the City made adjustments within its subsequent
ERRP reimbursement request submission. However, as of the end of our fieldwork, CCIIO had
not processed the subsequent ERRP reimbursement request because it did not have funds to
make payments on subsequent ERRP reimbursement requests. The ERRP is a temporary
reinsurance program with limited funding. CCIIO stated that if additional funding became
available for ERRP reimbursement, CCIIO would process and pay the outstanding ERRP
reimbursement requests in the order received from plan sponsors.




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                            5
Surviving Spouses Were Inappropriately Listed As Retirees

The City agreed with our finding related to the ERRP reimbursements of $54,430 based on
unallowable claims for surviving spouses who were inappropriately listed as early retirees on the
Early Retiree Lists.

Claims Made on Behalf of Active Employees

City Comments

The City disagreed with our finding related to the ERRP reimbursements of $12,271 for
unallowable claims made on behalf of active employees and stated that the retired and
subsequently reemployed employees were not eligible for any health benefits.

Our Response

We maintain that the City should refund $12,271 in unallowable ERRP reimbursements. The
Federal ERRP requirements mandate that an early retiree not be “an active employee of an
employer … that has made substantial contributions to fund the [employment-based plan]”
(45 CFR § 149.2.). The determination of whether an individual is an active employee is made by
the plan sponsor in accordance with the rules of its plan. Further, if a plan’s definition or rules
are absent or unclear, the plan sponsor must use the Medicare Secondary Payer definition of
current employment status to determine whether the individual should receive coverage based on
current employment status. The City did not provide any plan rules that would enable us to
determine that the retired and subsequently reemployed employees were not eligible for health
benefits as active employees. Therefore, we applied the Medicare Secondary Payer definition of
current employment status to make our determination.




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                           6
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered claims for 201 individuals reported as early retirees by the City for parts of
2 plan years from January 1 through December 31, 2010, and from January 1 through
September 30, 2011, for which the City received an ERRP reimbursement of $4,599,315. We
also reviewed how the City used the ERRP reimbursement. We reviewed only those internal
controls necessary to achieve our objective.

We performed our fieldwork from February 2012 through April 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal law and regulations and CCIIO guidance;

    •   interviewed City officials to obtain an understanding of the City’s policies and
        procedures related to ERRP;

    •   reviewed the City’s policies and procedures related to claim processing and employee
        eligibility for health and retirement benefits;

    •   determined whether the claims that the City submitted to CCIIO were for eligible early
        retirees by:

             o obtaining Early Retiree Lists that the City submitted to CCIIO and Early Retiree
               List response files that CCIIO returned to the City;

             o comparing the Social Security numbers of 201 individuals reported as early
               retirees by the City who participated in ERRP during our audit period to Medicare
               eligibility data from Medicare’s Enrollment Database (EDB); 9 and

             o verifying the employment status, health benefit and retirement eligibility status,
               and spouse or dependent status documented in the City’s electronic system and
               paper files for the 201 individuals reported as early retirees by the City;

    •   determined whether the claims that the City submitted to CCIIO were for allowable
        health benefit costs by:

             ○ comparing procedure codes on the claims that the City submitted to CCIIO
               against the excluded Common Procedure Terminology (CPT) and Healthcare
9
  Medicare’s EDB is the authoritative source for all Medicare entitlement information. The EDB contains
information on all individuals entitled to Medicare, including demographic information and enrollment dates.



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                        7
                    Common Procedure Coding System (HCPCS) codes listed in CCIIO guidance 10
                    and

                ○   recalculating total health benefit costs and reimbursable costs between cost
                    thresholds and cost limits for each of 201 individuals reported as early retirees by
                    the City;

       •   determined whether the City used the ERRP reimbursement to offset increases in health
           benefit plan costs and premiums by

                ○ using the “aggregate spending trend total dollars” method specified in CCIIO
                  guidance 11 to compare the City’s total contributions for each of the 2 plan years
                  (January 1 through December 31, 2010, and January 1 through December 31,
                  2011) with the City’s average contributions for its baseline period; 12 and

                ○ reviewing the City’s accounting records and bank statements to determine how
                  the City used the ERRP reimbursements; and

       •   discussed the results of our review with City and CCIIO officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




10
  The CCIIO guidance Claims Ineligible for Reimbursement Under the Early Retiree Reinsurance Program
(Sept. 28, 2010) and Coding Details for Ineligible Services Under Medicare Which Will Apply to ERRP (July 18,
2011) specified CPT and HCPCS codes for services not eligible for reimbursement under ERRP.
11
   CCIIO’s Guidance on Complying with the Prohibition on Using Early Retiree Reinsurance Program
Reimbursements as General Revenue (Aug. 19, 2011) specifies that one of the following four methodologies may be
used for determining compliance with the maintenance-of-contribution requirement: (1) using the aggregate
spending trend percentage, (2) using the aggregate spending trend total dollars, (3) using the per capita spending
trend percentage, and (4) using the per capita spending trend total dollars.
12
     The City used 2 consecutive plan years from January 1, 2008, through December 31, 2009, as its baseline period.


Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                                8
     APPENDIX B: FEDERAL REQUIREMENTS AND CENTER FOR CONSUMER
           INFORMATION INSURANCE OVERSIGHT GUIDANCE FOR
                 EARLY RETIREE REINSURANCE PROGRAM

FEDERAL REQUIREMENTS AND CENTER FOR CONSUMER INFORMATION
INSURANCE OVERSIGHT GUIDANCE FOR EARLY RETIREE REINSURANCE
PROGRAM REIMBURSEMENT AND ITS USE

The Patient Protection and Affordable Care Act, P.L. No. 111-148, and the Health Care and
Education Reconciliation Act of 2010, P.L. No. 111-152 (together, the Affordable Care Act),
enacted on March 23, 2010, established the ERRP.

To participate in the ERRP, the plan and its sponsor must meet the requirements of 45 CFR
part 149, and CCIIO must approve the plan sponsor’s application. 13 Early retirees must be
individuals who are (1) aged 55 or older, (2) not eligible for health insurance coverage under
Medicare, and (3) not active employees eligible for coverage under an employer’s health
insurance plan (section 1102(a)(2)(C) of the Affordable Care Act).

Claims submitted by plan sponsors for ERRP reimbursement must be based on actual costs
incurred for providing health benefits to early retirees and their spouses, surviving spouses, and
dependents (Affordable Care Act § 1102(c)(1)(B)). 14 “Incurred” means the point in time when
the sponsor, health insurance issuer, plan, plan participant, or a combination of these
stakeholders become responsible for payment of the claim (45 CFR § 149.2). CCIIO interprets
this regulatory definition of “incurred” to mean, with respect to (1) costs associated with an
inpatient acute care hospital stay, the date of admission; 15 (2) costs for items and services
furnished by institutions (other than inpatient acute care hospitals), “from date of service” for the
specific item or service specified on the bill; 16 (3) costs for a health benefit service provided by a




13
  Generally, the regulation uses the term “sponsor” when referring to the entity that applies for and receives
reimbursement under the ERRP and uses the term “employment-based plan” when referring to the health benefits
arrangement that the plan sponsor must offer (75 Fed. Reg.24451 (May 5, 2010)).
14
  The term ‘‘health benefits’’ includes medical, surgical, hospital, prescription drug, and other benefits as
determined by the Secretary of Health and Human Services, whether self-funded or delivered through the purchase
of insurance or otherwise (section 1102(a)(2)(A) of the Affordable Care Act). The CCIIO guidance Claims
Ineligible for Reimbursement Under the Early Retiree Reinsurance Program (Sept. 28, 2010) clarifies that CCIIO
provides ERRP reimbursement only for items and services for which Medicare generally reimburses.

15
 Available online at http://errp.gov/faq_costs.shtml, Answer ID 200-43, posted on 12/30/2010. Accessed on
April 2, 2013.
16
 Available online at http://errp.gov/faq_costs.shtml, Answer ID 200-44, posted on 12/30/2010. Accessed on
April 2, 2013.



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                           9
professional, the date that the service is furnished to an early retiree; 17 and (4) costs for
prescription drugs, the date the prescription is filled. 18

ERRP reimbursement is limited to 80 percent of the health benefit costs for all claims incurred
by the plan during the plan year that begins on or after June 1, 2010. To be eligible for
reimbursement, claims for health benefit costs attributable to each individual early retiree must
be between $15,000 (cost threshold) and $90,000 (cost limit) (45 CFR §§ 149.100 and 149.115).
Additionally, for a plan year that begins before June 1, 2010, and ends after that date, the amount
of claims incurred before June 1, 2010, that exceeds $15,000 is not eligible for reimbursement
and does not count toward the cost limit.

The Affordable Care Act requires plan sponsors to use ERRP reimbursement to reduce the
sponsor’s health benefit premiums and health benefit costs, to reduce the plan participants’
health benefit premiums and health benefit costs, or a combination of both. 19 This section also
requires CCIIO to develop a mechanism to monitor the appropriate use of ERRP reimbursement.
In the preamble to the interim final rule (75 Fed. Reg. 24456 (May 5, 2010)) that implemented
ERRP, CCIIO states that plan sponsors must “…maintain the level of effort in contributing to
support their applicable plan … [as it did before its participation in the ERRP]. Otherwise, plan
sponsors might circumvent the prohibition on using the program funds as general revenue by
using, dollar for dollar, sponsor’s funds not otherwise used for health benefits due to the program
reimbursement, as general revenue.” We refer to this as the maintenance-of-contribution
requirement.

According to CCIIO’s Guidance on Complying With the Prohibition on Using Early Retiree
Reinsurance Program Reimbursements as General Revenue (Aug. 19, 2011), a plan is presumed
to have properly used its ERRP reimbursement in a given year if the plan meets the maintenance-
of-contribution requirement. To meet that requirement, the plan’s contribution toward the health
benefit cost for the year must be equal to or more than the contribution it made in its baseline
period. 20



17
 Available online at http://errp.gov/faq_costs.shtml, Answer ID 200-45, posted on 12/30/2010. Accessed on
April 2, 2013.
18
 Available online at http://errp.gov/faq_costs.shtml, Answer ID 200-47, posted on 12/30/2010. Accessed on
April 2, 2013.
19
  “Plan participant” means anyone enrolled in an applicable plan including an early retiree, a retiree, a retiree’s
spouse and dependent, an active employee, and an active employee’s spouse and dependent (45 CFR § 149.2).
20
  The Guidance on Complying With the Prohibition on Using Early Retiree Reinsurance Program Reimbursements
as General Revenue specifies that plan sponsors may use any of the following periods as their baseline period for
determining their contribution level: (1) the plan sponsor’s most recent 12-month plan year that ended before the
date the plan sponsor submitted its ERRP application; (2) a period consisting of up to 5 of the plan sponsor’s most
recent consecutive 12-month plan years, including the plan sponsor’s most recent 12-month plan year that ended
before the plan sponsor submitted the ERRP application; and (3) a single 12-month plan year for which the plan
sponsor’s budget for health benefits and/or health benefit premiums was finalized or for which a collective
bargaining agreement was ratified before June 1, 2010.



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                               10
FEDERAL REQUIREMENTS AND CENTER FOR CONSUMER INFORMATION
INSURANCE OVERSIGHT GUIDANCE FOR EARLY RETIREE STATUS
DETERMINATION

The term “early retiree” includes an individual who meets the definition of an early retiree as
well as enrolled spouse, surviving spouse, and dependents of such individual (45 CFR § 149.2).

Prior to each ERRP reimbursement request, plan sponsors must submit a file to CCIIO, referred
to as an Early Retiree List, that identifies all eligible early retirees for a plan year. An Early
Retiree List must include each individual who meets the definition of early retiree and through
whom the spouse, surviving spouse, and dependents receive their health benefits. 21

CCIIO specifies that a surviving spouse would not satisfy the definition of an early retiree if the
individual through whom the surviving spouse receives health benefits died before June 1,
2010. 22

An early retiree may not be an active employee of an employer who pays or did pay for his or
her health benefits. The determination of whether an individual is an active employee is made
by the plan sponsor in accordance with the rules of its plan (45 CFR § 149.2). Absent a plan
definition or plan rules that are unclear, the plan sponsor must use the Medicare Secondary Payer
definition of current employment status to determine whether the individual is to be receiving
coverage by reason of current employment status (42 CFR § 411.104). If a retiree returns to
work, even for temporary periods, the employer is required to provide the same coverage under
the same conditions that is furnished to other employees (i.e., non-retirees) if the amount of work
the individual performs (based on hours, productivity, etc.) would be sufficient to earn the
employee coverage from the employer had the employee not retired. 23




21
  Available online at http://www.errp.gov/wbt/early_retiree_list/early_retiree_list_Lesson6.htm, slide 40. Accessed
on April 2, 2013.
22
 Available online at http://errp.gov/faq_eligible.shtml, Answer ID 300-7, posted on 09/24/2010. Accessed on
April 2, 2013.
23
  CMS’s Medicare Secondary Payer (MSP) Manual, chapter 1, section 50.1(H). Available online at
http://www.cms.gov/Regulations-and-Guidance/Guidance/Manuals/downloads/msp105c01.pdf. Accessed on
April 2, 2013.



Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                                          11
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                             Report          Date
                             Report Title
                                                                             Number         Issued
The UAW Retiree Medical Benefits Trust Properly Claimed                   A-05-11-00108   12/19/2012
Early Retiree Reinsurance Program Reimbursements

The Chicago Regional Council of Carpenters Welfare Fund                   A-05-11-00109   12/19/2012
Properly Claimed Early Retiree Reinsurance Program
Reimbursements




Review of Jersey City Early Retiree Reinsurance Program (A-05-12-00039)                           12
                                       APPENDIXD: CITY COMMENTS 





                                                                          City ofJmey Ci1}'
                                                                          Offi~ ofH~hb 'l).e:oefits
                                                                          280 Gro\>e Street
                                                                          J~Chy, NJ 01302
                                                                          20l-S47-SSLS
                                                                          ~




             Sheri l. Fulcher
             Regional l~<:tor Gcnqral        for Avdi~ Sc:rvitl:$
             Departrnenl o f IJta!th & num.an Se.rokes
             233 N. M ki\Jg;an Avenue Sui te 1360
             Chkaeo, IL60601

             Rc::      ~of l n$p<lct0f Gr.n t!rnl lO IG) Draft Ri!port No .: A-o5· 12-ooo3~

             Mrs. Fulcher:

             r m w riting to you i n rC$pOnStt to your Dra ft Re port No . A...OS-12·00039 rega rding yo ur findings
             pertain.in8 to the City of J et~ey City's requestand U1ililaUon of ttte Earty Retkee Reinsurance
             Program (ERRP) rdmbur$ement subsidy.

             \Ve h<MJ previouslv~sc.:IISS41'd with OIG r cplc;.cnt:JtivC$1h at tl->1!: City ofJen;e yCilV l$ e munk:lpa l
             sovern.ment operl!.lil'l8 undel" protocols sped flc to a public settor empkr)ter and havina oertain
             nuances that are Inherently d>'f fer ent than a standard oommercial employe-r, m01inly ~t11i(l $blt11t:$
             specifical fv 5ovemine re-empk)yment. This Sl!P<Jrate so~rnm er~t regvl;,!ion hes not beet~ full '/
             wnPdercd within tilt 11u d"sts drorft doc;umtnu.

             We have reviewed yout draft findings and are In disagreement with two of tlU! itc!N oonto;n.ro
             wit hin the report. Add ressin:geach item as lUted on ...Page i i" of the Executive Summary Df'aft:

             1. 	       fn a~nd Date vs. Pai d Date C'Ji eulatlon :
                    ERRP auditors are anemp ting to diSa!low$63,100 in net pakl sul>sictvbase<J on submirted
                    claims for oosts Incurred before June 1, 2010.

                    This "Paid CJoim" vs. ..Jneurr~ CloT.m"' dejl'nitkm hod o lreody been correct« within the City's
                    subseg~~ttttt submlssfr>n (tnp ermitted by fRRP reaulatioll} th<rf W(IS diswn ed and T'f:'C,(1flnizr:d
                    by0/G represenrotiii('S b41t not outllnedwith in thereport. Thvn:forr: this retommcndo rion is
                    $tolr: os this omount hos olttNJ.dy been adjlNtt:d with subsequent filing .




hviN (/.let"J'Jl    Ci~   EaJ'Z, Retil'ee kin.uuance hogram (.A· 05·12·00039)                                                13
2. 	         Eafly Retirees:
       OIC ,:,udl1or.; ;lf<! d ~!lowi11t; $S-t,'l30.,_ p"id tvb~idv for ~•Ui:f'l m.omben: v;ho :are coiUUer~d
       surviving spo~s hovfC!'I\!r, 1ht prim:.rv m<:mber h a!Jtt\8 d~d prior to June 1, '2010; the
       tj{f'cctivc d;,.le of UH~ E.RRP regull)lion.

       TheCity utlderstonds this qversiglrt. fhis CNenjght wos crea U!d d ue to speclfl' membe:
       coding within the third party administrators etigibi/ity system.


3. 	      Rehire Retirees:
       OtG auditors are questioning $1~~7] in ERRP rcimbune.nenu for four rehtred retirees.

       A letter was supplied   frort~ the Ot'('s Personnel Director, M rs. Darlene Pflarmcs, oud ining the
       non-erig.iblllt\' when a retired City eftl)foyee ts rehired. Thi$ $po0ficd 3.S:S or rehires f:S •ot
       eligible for benefits.

       l'urtt14:rmore, tcrttl~td as New Jersevcutc~artte (~act sneet) surro1.1ndJng emptovm•nt ;rttc r
       retirement formembers of the Pollee and Firemen'$ Retiremtnt System (PFRS). As .rtated
       within this Fact S~et. re tum lnr, to e~r~ployment n ot covered by the PfRS win not affed the
       e4le:ibllity for retlree benefi1s with adiltional la nguage statinC. th at retumln.g to work h1 a
       different State retirement system disqualif'.es them from bei ng able 10 become a m cmbef o f
       that retirement sysum.

       The foor rehires id entified 01re ;all PFRS r~Hrots w ho wae later rehired Into a non-betwfit
       eligible PO$ition ;~sa Qvili~ n bllif\& U'ld er the PUbliC Emplovees' Retirement System {PEftS).
       This again undersaw~ the members' Ineligibility for benems.

In dc».ina,. we understand the intefl t of t~ ERRP proyam .-nd tlle tatlonal fot proper auditing
beinsoonduatd. We ;;~pprtei3le the audits find Eng.s that the City's        :em
                                                                           reimburserwnb were in
oornplillntewith Fedel"bl tetjulrements ard CCnO guidan ce.

Thank you.




S.sl<>ess    Adm~


                                                                                                                14
